TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Centralized Sites Effectively Evaluated
                  Offers in Compromise From Self-Employed
                 Taxpayers and Assisted in Reducing Overall
                                   Staffing



                                          March 26, 2007

                              Reference Number: 2007-30-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  March 26, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Centralized Sites Effectively Evaluated Offers in
                               Compromise From Self-Employed Taxpayers and Assisted in Reducing
                               Overall Staffing (Audit # 200630020)

 This report presents the results of our review of the Centralized Offer in Compromise (COIC)
 sites’1 evaluation of offers in compromise (offer) filed by certain self-employed taxpayers. The
 overall objective of this review was to determine whether the centralized sites properly resolve
 offers from taxpayers who file a U.S. Individual Income Tax Return (Form 1040) Profit or Loss
 From Business (Schedule C) and evaluate the related impact on the field offer groups.2 This
 audit was initiated at the request of the Commissioner, Small Business/Self-Employed Division,
 for us to evaluate the ability of the sites to accurately and timely work offers from these
 taxpayers.

 Impact on the Taxpayer
 The COIC sites in Brookhaven, New York, and Memphis, Tennessee, evaluate offers for
 “simpler” cases (e.g., wage earners), while more complex offers (e.g., business and
 self-employed taxpayers) are forwarded to field offer groups where they are evaluated by
 experienced revenue officers, known as offer specialists. Recently, the Internal Revenue

 1
   The COIC sites are also referred to as the centralized sites or sites in this report.
 2
   The Collection Field function is the unit in the Area Offices consisting of revenue officers who handle personal
 contacts with taxpayers to collect delinquent accounts or secure unfiled returns. Specialized staff from the
 Collection Field function are designated responsibility for evaluation of offers. An Area Office is a geographical
 organizational level used by Internal Revenue Service business units and offices to help their specific types of
 taxpayers understand and comply with tax laws and issues.
                     Centralized Sites Effectively Evaluated Offers in Compromise
                   From Self-Employed Taxpayers and Assisted in Reducing Overall
                                                Staffing


Service (IRS) successfully integrated offers submitted by certain self-employed taxpayers into
the mix of cases evaluated by the centralized sites. This change provides taxpayers with quicker
responses to their proposed offers and assisted the IRS in reducing the number of revenue
officers dedicated to the offer program.

Synopsis
The IRS provided effective oversight to ensure the successful
implementation of the self-employed Schedule C units at the                  Self-employed
centralized sites. We determined the sites accurately and timely        Schedule C cases were
processed a sample of closed self-employed Schedule C offers and        worked effectively and
took an average of 126 days to work this type of case. In                efficiently in the COIC
comparison, field offer groups took an average of 187 days to                     sites.
process similar types of offers.
This process change and other changes over the past several years have resulted in taxpayers
receiving quicker responses to their proposed offers. The number of cases in the field offer
groups taking more than 12 months to close decreased from approximately 36 percent in Fiscal
Year 2002 to about 14 percent in Fiscal Year 2006. In addition, the centralized offer concept has
assisted in reducing the number of employees dedicated to the offer program. A 54 percent
decrease in offers received between Fiscal Years 2003 and 2006 and improved efficiencies
allowed the IRS to reduce the number of revenue officers from 1,078 in April 2001 to 143 in
October 2006 and the number of technical employees in the COIC sites from 616 in
August 20023 to 360 in January 2007. The 935 revenue officers formerly dedicated to the offer
program retired or returned to the Collection Field function. In addition, revenue officers in the
Collection Field function also retired or resigned during this period, resulting in an increase of
275 revenue officers assigned to the field. This growth was significant because the Collection
Field function increased collections by 34 percent, from approximately $2.7 billion in Fiscal
Year 2001 to $3.6 billion in Fiscal Year 2006. While other factors certainly influenced the
increase in collections, such an increase would not have occurred if the staff resources had been
retained in the offer program.

Recommendation
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.



3
    The COIC sites were implemented in August 2001.


                                                                                                   2
                 Centralized Sites Effectively Evaluated Offers in Compromise
               From Self-Employed Taxpayers and Assisted in Reducing Overall
                                            Staffing


Copies of this report are also being sent to the IRS managers affected by this report. Please
contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant Inspector
General for Audit (Small Business and Corporate Programs), at 202-622-5894.




                                                                                                3
                       Centralized Sites Effectively Evaluated Offers in Compromise
                     From Self-Employed Taxpayers and Assisted in Reducing Overall
                                                  Staffing




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Evaluations of Offers in Compromise Submitted by Self-Employed
          Schedule C Taxpayers Were Successfully Integrated Into
          the Centralized Sites .....................................................................................Page 3
          Centralized Sites Accurately and Timely Processed Offers .........................Page 4
          Timeliness of Offer Processing Has Improved, and Use of
          Staff Resources Has Declined.......................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Related Treasury Inspector General for
          Tax Administration Audit Reports................................................................Page 15
         Centralized Sites Effectively Evaluated Offers in Compromise
       From Self-Employed Taxpayers and Assisted in Reducing Overall
                                    Staffing




                       Abbreviations

AOIC             Automated Offer in Compromise
COIC             Centralized Offer in Compromise
IRS              Internal Revenue Service
                    Centralized Sites Effectively Evaluated Offers in Compromise
                  From Self-Employed Taxpayers and Assisted in Reducing Overall
                                               Staffing




                                              Background

The Internal Revenue Service (IRS) is responsible for collecting taxes when taxpayers do not
fully pay their tax liabilities. It has the authority to settle or compromise a Federal tax liability
by accepting less than full payment under certain circumstances. This is accomplished through a
taxpayer’s submission of an offer in compromise (offer) on an Offer
in Compromise (Form 656). Currently, the IRS is authorized to                   The offer in compromise is
compromise a liability for any one of three reasons:                             an agreement between a
                                                                                            taxpayer and the Federal
    •    Doubt As to Collectibility, when the taxpayer’s assets and                        Government that settles a
         income are less than the full amount of the liability.                            tax liability for payment of
                                                                                            less than the full amount
    •    Effective Tax Administration, when, although collection in                                    owed.
         full could be achieved, collection of the full liability would
         cause the taxpayer economic hardship.
    •    Doubt As to Liability, when there is a genuine dispute as to the existence or amount of
         the correct tax liability under the law.
The Centralized Offer in Compromise (COIC) sites1 in Brookhaven, New York, and
Memphis, Tennessee process application fees, screen cases for processability,2 and gather
required documents and information. These centralized sites evaluate offers for “simpler” cases
(e.g., wage earners), while more complex cases (e.g., business and self-employed taxpayers) are
forwarded to field offer groups3 where they are evaluated by experienced revenue officers,
known as offer specialists.




1
  The COIC sites are also referred to as the centralized sites or sites in this report.
2
  Processability requirements include the taxpayer cannot be in bankruptcy, has filed all required tax returns, and has
submitted the $150 application fee or Income Certification for Offer in Compromise Application Fee and Payment
(Form 656-A). Processability requirements for offers filed after July 16, 2006, were changed due to enactment of
the Tax Increase Prevention and Reconciliation Act of 2005 (Pub. L. No. 109-222, 120 Stat. 345), which requires a
down payment that is 20 percent of the offer amount for lump-sum offers or the first installment of a periodic
payment offer (one payable in 6 or more installments). The processability requirements now include the taxpayer
(1) cannot be in bankruptcy and (2) has submitted the $150 application fee, the offer down payment, or a
Form 656-A.
3
  The Collection Field function is the unit in the Area Offices consisting of revenue officers who handle personal
contacts with taxpayers to collect delinquent accounts or secure unfiled returns. Specialized staff from the
Collection Field function are designated responsibility for evaluation of offers. An Area Office is a geographical
organizational level used by IRS business units and offices to help their specific types of taxpayers understand and
comply with tax laws and issues.
                                                                                                               Page 1
                 Centralized Sites Effectively Evaluated Offers in Compromise
               From Self-Employed Taxpayers and Assisted in Reducing Overall
                                            Staffing



The centralized sites were implemented in August 2001. At that time, the IRS intended for the
sites to work offers submitted by self-employed taxpayers, but, because of a large inventory, it
determined these types of offers should be worked by the field offer groups. However, since
Fiscal Year 2003, offer receipts have been declining, and the IRS has identified simpler field
offer cases that could be worked at the centralized sites. It expected this would allow additional
reduction of field personnel in the offer program and more efficiently use resources at the
centralized sites. Based on analysis of cases closed by field offer groups, the IRS defined the
population of self-employed cases for full processing at the sites as offers submitted by taxpayers
who:
   •   File a U.S. Individual Income Tax Return (Form 1040) with Profit or Loss From Business
       (Schedule C).
   •   Have gross receipts of fewer than $100,000 per year.
   •   Do not have employees.
This review was performed at the Brookhaven and Memphis COIC sites in the Small Business/
Self-Employed Division during the period July 2006 through February 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                            Page 2
                    Centralized Sites Effectively Evaluated Offers in Compromise
                  From Self-Employed Taxpayers and Assisted in Reducing Overall
                                               Staffing




                                      Results of Review

Evaluations of Offers in Compromise Submitted by Self-Employed
Schedule C Taxpayers Were Successfully Integrated Into the
Centralized Sites
The IRS has successfully integrated offers submitted by certain self-employed taxpayers who file
Form 1040 Schedule C4 into the types of cases evaluated by the COIC sites. The integration
included steps to ensure the criteria used to identify cases for the sites’ self-employed
Schedule C units were appropriate and to ensure the new types of offers were timely and
accurately worked. Our review showed these cases were worked effectively and efficiently in
the sites.
The IRS tested the feasibility of working these cases at the centralized sites by conducting a pilot
between April 15, 2005, and March 27, 2006.5 To provide test cases and maintain a reasonable
workload, management limited cases to approximately 90 per site per month. Cases over the
limit were sent to the field offer groups for evaluation. The IRS began using the offer category
code on the Automated Offer in Compromise (AOIC) database.6 This code identifies offers
based on the taxpayer’s filing requirements or other identifying characteristic. It provided a
methodology to systemically identify and track cases meeting the self-employed Schedule C
criteria and whether the cases were worked in the sites or in the field offer groups.
Analysts from the campus7 Collection Compliance and Compliance Policy functions evaluated
the quality of cases worked and conducted weekly conference calls to stay apprised of the pilot’s
progress and developing issues. Also, employees of the pilot and employees selected for the
full-time offer examiner positions were provided sufficient training to introduce them to issues
relevant to self-employed Schedule C taxpayers.




4
  Taxpayers who file Form 1040 Schedule C are referred to as self-employed Schedule C taxpayers.
5
  The sites continued to work self-employed Schedule C offers during the rollout of the self-employed Schedule C
units. We considered the self-employed Schedule C units to be fully implemented with the selection and training of
offer examiners beginning June 1, 2006.
6
  The IRS database used to monitor offer case processing; it was designed to control, track, and monitor offers.
7
  The data processing function of the IRS. The campuses process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 3
                    Centralized Sites Effectively Evaluated Offers in Compromise
                  From Self-Employed Taxpayers and Assisted in Reducing Overall
                                               Staffing



We further evaluated the timeliness of offer processing using the judgmental sample of 60 offers
closed (20 accepted, 20 rejected, and 20 returned). These offers were in process for
approximately 131 days, ranging from 21 days to 220 days.12 While 12 (20 percent) of the
60 offers reviewed exceeded the 180-day goal, they exceeded the 180-day goal by only 14 days
on average.
Our analysis of the days in process showed the largest component of the processing days
(34 percent) was for taxpayer response to information requests or results of preliminary
evaluations. The offer examiners’ evaluations of offers and related work accounted for fewer
than 20 percent of the days that these offers were in process. Figure 1 shows our analysis of the
processing activities for the 60 offers we reviewed.
                       Figure 1: Processing Activities for Closed Offers

                                                    A dministrative           A dministrative
                                                       Review                Clo sing A ctio ns
                                                         6%                         12%
                                                                                          P ro cess Examiner
                                                                                              / P reliminary
                              Ho ld fo r Taxpayer                                                A ctio ns
                                Respo nse(s)                                                        17%
                                      34%



                                                                                         Ho ld fo r
                                                                                      A ssignment to
                                                                                      Offer Examiner
                                                                 Offer Examiner             12%
                                                                    A ctio ns
                                                                       19%


                      Source: Treasury Inspector General for Tax Administration analysis of
                      60 self-employed Schedule C offers accepted, rejected, or returned.

Timeliness of Offer Processing Has Improved, and Use of Staff
Resources Has Declined
The IRS’ target for completing offer evaluations is within 6 months of receipt for centralized
sites and within 9 months of receipt for field offer groups.13 In addition, management indicated
that a goal of centralizing the evaluation of self-employed Schedule C offers was to reduce the
field staffing dedicated to the offer program and to maximize the efficiency of the site staffing.
Our review showed a reduction in the overall number of offers received, improvements in the



12
   From August 29, 2005, through approximately February 28, 2006, offers from taxpayers affected by hurricanes
were held from further actions. In 4 of 30 offers reviewed from the Memphis site, the offer evaluation process was
affected by the IRS tax relief efforts.
13
   The goal for field offer groups was originally within 6 months of receipt; however, the IRS modified this goal to
9 months during Fiscal Year 2005.
                                                                                                               Page 6
                               Centralized Sites Effectively Evaluated Offers in Compromise
                             From Self-Employed Taxpayers and Assisted in Reducing Overall
                                                          Staffing



timeliness of offer processing, and implementation of the self-employed Schedule C units all
contributed to a reduction in field staffing requirements during Fiscal Year 2006.

The numbers of over-age cases have steadily declined in both the field offer
groups and centralized sites
Since Fiscal Year 1999, we have conducted a series of reviews to evaluate the offer program (see
Appendix IV for a list of the prior audit reports). Some of these reviews identified significant
timeliness issues; however, they also showed the overall timeliness of offer processing has
generally improved over the years. This has resulted in taxpayers receiving quicker responses to
their proposed offers. For example, the number of cases in process more than 1 year was a
concern for the field offer groups.14 In Fiscal Year 2002, approximately 36 percent of the field
offer groups’ dispositions took more than 12 months to process. This condition improved to
approximately 14 percent during Fiscal Year 2006. Figure 2 shows the age of offer dispositions
at the sites and field offer groups for Fiscal Years 2002 through 2006.
                     Figure 2: Age of Processable Dispositions at the COIC Sites and
                         Field Offer Groups for Fiscal Years 2002 Through 200615
                                     COIC Sites                                                                   Field Offer Groups
                0%           1%           1%             1%            1%
 100%                                                    7%            7%
                             14%           9%
     90%      18%                                                               100%
                                                                                                                                                           14%
     80%                                                                        90%                                                       23%
                                                                                          36%              32%            34%
                                                                                80%
     70%
                                                                                70%
     60%                                                                                                                                                   43%
                                                                                60%                                                       43%
     50%                                                 92%           92%
                             85%          90%                                   50%
     40%      82%                                                                                          43%            47%
                                                                                          44%
                                                                                40%
     30%
                                                                                30%
     20%                                                                                                                                                   43%
                                                                                20%                                                       34%
     10%                                                                                  20%              25%            20%
                                                                                10%
     0%                                                                          0%
           FY 2002      FY 2003       FY 2004        FY 2005       FY 2006             FY 2002          FY 2003       FY 2004          FY 2005         FY 2006
              0 - 6 Months   More than 6 Months - 12 Months    Over 12 Months            0 - 6 Months     More than 6 Months - 12 Months         Over 12 Months




 Source: Treasury Inspector General for Tax Administration analysis of Collection Reports 5000-108 (Monthly
 Report of Offer in Compromise Activity). FY = Fiscal Year.




14
  See Appendix IV, report 6.
15
  Beginning in Fiscal Year 2005, the IRS data include not-processable offers in the age of dispositions. For
comparability with prior fiscal years, we excluded not-processable offers from the number of offers disposed of in
6 or fewer months (to arrive at the percentages shown in the Fiscal Years 2005 and 2006 columns of Figure 2).
                                                                                                                                                              Page 7
                   Centralized Sites Effectively Evaluated Offers in Compromise
                 From Self-Employed Taxpayers and Assisted in Reducing Overall
                                              Staffing



 Also, the number of offers received has been declining during the recent fiscal years. As shown
 in Figure 3, the total number of offers received decreased by approximately 69,000 (54 percent)
 between Fiscal Years 2003 and 2006. During this same period, offer receipts in the field offer
 groups decreased by approximately 24,000 (56 percent).16
               Figure 3: Offer Receipts in Fiscal Years 2002 Through 2006

                                   140,000
                                   120,000
                                   100,000

                                     80,000
                                     60,000

                                     40,000
                                     20,000
                                        -
                                                FY 2002   FY 2003   FY 2004   FY 2005   FY 2006

                           COIC Sites           79,857    84,921    72,261    48,590    39,835
                           Field Offer Groups   44,176    42,848    33,764    25,721    18,752
                           Total                124,033   127,769   106,025   74,311    58,587


                    Source: Treasury Inspector General for Tax Administration analysis of
                    Collection Reports 5000-108. FY = Fiscal Year.

Our analysis of the AOIC database showed that, between May 1, 2005, and November 30, 2006,
approximately 28,000 offers were worked or were in process at the field offer groups. During
this same period, the sites worked or had in process approximately 5,000 self-employed
Schedule C offers. This represents a reduction of approximately 15 percent in the number of
offers sent to the field offer groups.

Required staffing levels continue to decline
The number of technical employees (i.e., process examiners and offer examiners) working in the
COIC sites decreased from 616 in August 2002 to 360 in January 2007 (42 percent). This
reduction would appear to be in line with the reduction in the number of offers received,
considering centralized site employees now work more complicated cases that require more
processing steps.




16
  IRS offer management believes receipts may continue to decline with enactment of the Tax Increase Prevention
and Reconciliation Act of 2005. Our comparison of offer receipts for both the 5 months before and
5 months after implementation of this Act showed receipts declined by about 18 percent.
                                                                                                        Page 8
                 Centralized Sites Effectively Evaluated Offers in Compromise
               From Self-Employed Taxpayers and Assisted in Reducing Overall
                                            Staffing



In April 2001, 1,078 revenue officers were dedicated to the offer program. Implementation of
the COIC sites in August 2001, the lower number of offers received during Fiscal Years 2004
and 2005, and the expansion of self-employed Schedule C taxpayers to the sites in Fiscal
Year 2006 allowed the IRS to reduce the number of revenue officers dedicated to the offer
program. Management indicated that, by the end of Fiscal Year 2006, this number had been
reduced to 143 revenue officers working out of 3 Area Offices. The 935 revenue officers
formerly dedicated to the offer program retired or returned to the Collection Field function. In
addition, revenue officers in the Collection Field function also retired or resigned during this
period, resulting in an increase of 275 revenue officers assigned to the field. This growth was
significant because the Collection Field function increased collections by 34 percent, from
approximately $2.7 billion in Fiscal Year 2001 to $3.6 billion in Fiscal Year 2006. While other
factors certainly influenced the increase in collections, such an increase would not have occurred
if the staff resources had been retained in the offer program.




                                                                                           Page 9
                    Centralized Sites Effectively Evaluated Offers in Compromise
                  From Self-Employed Taxpayers and Assisted in Reducing Overall
                                               Staffing



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the COIC sites1 properly resolve
offers in compromise (offer) from taxpayers who file a U.S. Individual Income Tax Return
(Form 1040) Profit or Loss From Business (Schedule C)2 and evaluate the related impact on the
field offer groups.3 This audit was initiated at the request of the Commissioner, Small
Business/Self-Employed Division, for us to evaluate the ability of the sites to accurately and
timely work offers from these taxpayers.
During the review, we relied on data from the AOIC database4 to identify closed offers. We
evaluated the reasonableness of the data through comparison with selected information from the
IRS Collection Reports 5000-108 (Monthly Report of Offer in Compromise Activity). We
determined the data were sufficiently reliable for the purposes of sample selection and various
analyses. Additionally, unless otherwise noted, we used judgmental sampling techniques to
minimize time and because this method was sufficient to meet our overall objective. To
accomplish our objective, we:
I.       Determined whether the appropriate offers were identified for full evaluation by the
         COIC sites’ self-employed Schedule C units.
         A. Identified the processes and procedures used to identify cases to be worked at the
            sites and identified any differences in these procedures between the pilot and full
            program implementation.
         B. Evaluated management’s assessment of the self-employed Schedule C pilot to ensure
            the criteria used to identify cases were appropriate.
         C. Reviewed a judgmental sample of 30 offers in the unassigned inventory awaiting
            assignment to offer examiners. We reviewed 15 offers from each site to determine
            whether the offers met processing guidelines for the self-employed Schedule C units.
            Our samples were judgmentally selected from offers in the unassigned inventory for
            the self-employed Schedule C unit examiners during our onsite visits on

1
  The COIC sites are also referred to as the centralized sites or sites.
2
  Taxpayers who file Form 1040 Schedule C are referred to as self-employed Schedule C taxpayers.
3
  The Collection Field function is the unit in the Area Offices consisting of revenue officers who handle personal
contacts with taxpayers to collect delinquent accounts or secure unfiled returns. Specialized staff from the
Collection Field function are designated responsibility for evaluation of offers. An Area Office is a geographical
organizational level used by IRS business units and offices to help their specific types of taxpayers understand and
comply with tax laws and issues.
4
  The IRS database used to monitor offer case processing; it was designed to control, track, and monitor offers.
                                                                                                            Page 10
                   Centralized Sites Effectively Evaluated Offers in Compromise
                 From Self-Employed Taxpayers and Assisted in Reducing Overall
                                              Staffing



             August 30, 2006, and September 12, 2006. There were 263 offers in this inventory
             status.
II.     Determined whether the offer evaluations for self-employed Schedule C taxpayers closed
        by the COIC sites were based on accurate and consistent financial analyses.
        A. Identified and evaluated procedures used by the sites for conducting offer evaluations.
        B. Identified and evaluated training for the self-employed Schedule C unit examiners.
        C. Obtained from the AOIC database a computer extract of all offers closed or in process
           between April 1, 2005, and July 3, 2006 (101,807 offers). We chose this period
           because it represented current case closures at the time of our sample selection and
           covered the period of the self-employed Schedule C pilot.
             1. Reviewed a judgmental sample of 60 self-employed Schedule C offers (30 offers
                from each site) closed between April 1, 2006, and June 30, 2006. This included
                20 of 165 offers accepted, 20 of 82 offers rejected, and 20 of 132 offers returned
                to the taxpayers. We obtained and evaluated the IRS case files to determine
                whether correct conclusions were reached and evaluated the accuracy of the
                financial analyses used to determine equity in assets and future income. This
                sample was identified from the data extract discussed in Step II.C. using the offer
                category code, which identifies offers based on the taxpayer’s filing requirements
                or other identifying characteristic (e.g., code 2 represents self-employed Schedule
                C cases).
III.    Determined the impact of the self-employed Schedule C units on the timeliness of offer
        evaluations at COIC sites.
        A. Evaluated the timeliness of offer processing from Collection Reports 5000-108.
        B. Obtained from the AOIC database an amended computer extract of all offers closed
           or in process between April 1, 2005, and December 4, 2006 (140,876 offers). We
           obtained an updated data extract to evaluate current case closures and to cover the
           period of the self-employed Schedule C pilot. We compared the average number of
           days offers are in process for the self-employed Schedule C units with the average
           number of days for other offer types. We limited these data to the period
           May 1, 2005 through November 30, 2006.5
IV.     Determined the impact on the number of offers forwarded to the field offer groups for
        determination.

5
 This 19-month period includes the pilot phase and full implementation of the self-employed Schedule C units.
While the beginning of the self-employed Schedule C pilot was April 15, 2005, we used May 1, 2005, to allow time
for the centralized sites to evaluate cases. We used November 30, 2006, because these were the most current data
available at the time of our analysis.
                                                                                                       Page 11
         Centralized Sites Effectively Evaluated Offers in Compromise
       From Self-Employed Taxpayers and Assisted in Reducing Overall
                                    Staffing



A. Identified the number of offers forwarded to field offer groups for processing from
   the data extract discussed in Step III.B.
B. Identified the change in the number of revenue officers assigned to the offer program
   through discussion with IRS management.




                                                                                 Page 12
                 Centralized Sites Effectively Evaluated Offers in Compromise
               From Self-Employed Taxpayers and Assisted in Reducing Overall
                                            Staffing



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Darryl J. Roth, Lead Auditor
Phyllis E. Heald, Senior Auditor




                                                                                        Page 13
                Centralized Sites Effectively Evaluated Offers in Compromise
              From Self-Employed Taxpayers and Assisted in Reducing Overall
                                           Staffing



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 14
                Centralized Sites Effectively Evaluated Offers in Compromise
              From Self-Employed Taxpayers and Assisted in Reducing Overall
                                           Staffing



                                                                             Appendix IV

        Related Treasury Inspector General for Tax
               Administration Audit Reports

1. More Taxpayers Can Benefit From the New Offer in Compromise Provisions (Reference
   Number 2000-40-093, dated June 2000).
2. The Internal Revenue Service Needs to Consistently Use Special Circumstances in the Offer
   in Compromise Program (Reference Number 2001-30-096, dated May 2001).
3. The Internal Revenue Service Needs to Take Timely and Appropriate Closing Actions on
   Offers in Compromise (Reference Number 2002-30-181, dated September 2002).
4. Continued Progress Is Needed to Improve the Centralized Offer in Compromise Program
   (Reference Number 2003-30-182, dated September 2003).
5. Monitoring of Accepted Offers in Compromise Is Generally Effective, but Some Improvement
   Is Needed (Reference Number 2004-30-043, dated January 2004).
6. Improvements Are Needed in the Timeliness and Accuracy of Offers in Compromise
   Processed by Field Offer Groups (Reference Number 2005-30-013, dated December 2004).
7. The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
   Offers Filed by Taxpayers at All Income Levels (Reference Number 2005-30-096, dated
   June 2005).
8. The Offer in Compromise Program Is Beneficial but Needs to Be Used More Efficiently in
   the Collection of Taxes (Reference Number 2006-30-100, dated July 17, 2006).




                                                                                      Page 15
